No.

-5426
IN THE

SUPREME COURT OF THE UNITED STATES

Stephen C. Shockley

PETITIONER

vs .
Bobby Lumpkin, Director TDCJ CID

RESPONDENT

FILED
AUG 1 1 2021
§nPREMEFCTOURTLURSK

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Stephen C. Shockley, # 1793928
2661 FM 2054; Coffield Unit
Tennessee Colony, TX 75884

QUESTION PRESENTED
U.S. Const. Amend. XIV
When a federal district court refuses to hear the due-process
component of a state habeas claim because that claim was twice
presented to the State and therefore suffers a state-relitigation
bar, does the district court's refusal constitute error in light
of this Court's holding in Cone v. Bell, 566 U.S. 449 (2009)?

Does this Court's outlook change where the facts show the claim
was not relitigated in the state?

NOTE: This Court held in Cone v. Bell, that state relitigation
bars offer no bar to federal review of state claims.

LIST OF PARTIES
All parties appear in the caption of the case on the cover page

RELATED CASES
• The State of Texas v. Stephen Coleman Shockley, No. 366-82727-09
In The 366th District Court of Collin County, Texas. Judgment
Entered on 24 May 2012
• Stephen Coleman Shockley v. The State of Texas, No. 05-12-01018CR
In The Court of Appeals Fifth District of Texas at Dallas,
Judment Entered on 30 July 2014
• Stephen Coleman Shockley v. The State of Texas, No. PD-1093-14
In The Texas Court of Criminal Appeals. Petition For Discretionary Review was REFUSED on 14 January 2015. Motion For Rehearing
was timely-filed on 2 February 2015 and DENIED on 25 February
2015.
• Ex Parte Stephen Coleman Shockley, No. WR-84,823-09. On state
habeas corpus: In The Texas Court of Criminal Appeals. Judgment
Entered on 9 November 2016.
• Stephen C. Shockley #1793928 v. Director, TDCJ-CID, No. 4:17cvl96
Judgment Entered on 30 March 2020 In The United States District
Court For The Eastern District of Texas, Sherman Division.
• Stephen C. Shockley v. Bobby Lumpkin, Director, TDCJ-CID,
No. 20-40305 In The United States Court of Appeals For The
Fifth Circuit. Judgment Entered on 25 March 2021.

I

TABLE OF CONTENTS
OPINIONS BELOW

D

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

9

CONCLUSION

11

INDEX TO APPENDICES
APPENDIX A

Decision Of The United States Court Of Appeals
For The Fifth Circuit

APPENDIX B

Decision Of The United States Federal District
Court For The Eastern District Of Texas

APPENDIX C

Decision Of The Texas Court Of Criminal Appeals

APPENDIX D

Decision Of The Court Of Appeals, Fifth District
Of Texas at Dallas

APPENDIX E

State Habeas Corpus Grounds Three and Four

APPENDIX F

Petition For Federal Writ Of Habeas Corpus
Under .,28 U.S.C. 2254

APPENDIX G

Terms Of Running Bill Demonstrating Bill’s
Inapplicability To The Issue Raised

APPENDIX H

Petitioner’s Repeated Efforts To Correct Appellate
Court's Misapprehension Of Habeas Claims

TABLE OF AUTHORITIES CITED
CASES
Cone v. Bell, 566 U.S. 449 (2009)

PAGE NUMBER
4, 9, 10

STATUTES AND RULES
28 U.S.C. §2254 Habeas Corpus

4,> 9

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to
review the judgment below:
OPINIONS BELOW
The opinion of the United States court of appeals appears at
Appendix A to the petition and is UNPUBLISHED.
The opinion of the United States district court appears at
Appendix B to the petition and is UNPUBLISHED.

1

JURISDICTION
The date on which the United States Court of Appeals decided
my case was 25 March 2021.
A timely petition for rehearing was denied by the
United States Court of Appeals on 12 May 2021.
NOTE: This Court should note that the Court of Appeals
treated Petitioner's Motion For Panel Rehearing as a
Motion For Leave To File Out-of-Time. This owing to the
fact that the Cleirk marked the Motion For Panel Re-hearing as FILED on the date-of-reciept rather than on the
date in the Inmate Declaration Of Filing which shows
the Motion For Panel Rehearing was filed timely on
the last day of the period for filing.
Because of the Clerk's error, Petitioner's Motion For
Panel Re-hearing was not heard.
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1)

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S. Constitution, Amendment XIV
SECTION 1. All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No State shall make
or enforce any law which shall abridge the privileges or immunit­
ies of the United States; nor shall any State deprive any person
of life, liberty or property, without due process of law; nor deny
any person within its jurisdiction the equal protection of the
laws. (Emphasis added).

3

STATEMENT OF THE CASE
This case stems from the District Court refusing to hear a claim
raised under 28 U.S.C. 2254 where the State had previously relied
upon a state "relitigation" bar to dispatch the claim. Petitioner
has argued, and the record is clear, that his state habeas applica­
tion "relitigated" no denial of a federal right.
Even if "relitigation" had occurred, this Court has made clear
that state "relitigation" bars DO NOT bar federal review by a Dist­
rict Court. Indeed, the presence of a state relitigation bar has the
opposite effect: it leaves the claim "ripe for federal review." See
CONE v. BELL, 566 U.S. 449, 466 (2009).
The pertinent facts are:
A.
(1)

UNDERLYING TRIAL EVENTS GIVING RISE TO CLAIM

Petitioner was tried by jury under Texas Penal Code (TPC) §21.02

on the allegation that two or more times during a period of 30 or
more days he used his hand to penetrate the outer plane of, or to
organ
contact the sexual of a minor female.
(2)

The State's case was not a strong one. The Court of Appeals,

Fifth District of Texas at Dallas, found the State's need for evi­
dence to remain "considerable" at the end of its case-in-chief.
(See Appendix I) , at
(3)

8 )

To rebut both the defensive theory of fabrication, and Def­

ense Counsel's introduction of Petitioner as a "20 year veteran
of the U.S. Air Force..." employed by "Boeing [with a] Secret sec­
urity clearance...hard working...a good father...a good husband,"

4

(RR3:17), the State presented rebuttal testimony by Ms. Kristen
Chandler, a woman 30 years of age. Kristen alleged that 15 years
prior, Petitioner had a sexual relationship with her.
(4)

Ms. Chandler's third-party extraneous testimony was graphic.

It alleged "oral on me" and "actual sex... the penis in the vagina,"
(RR4:14). The instant case contained no allegation of oral sex, no
allegation of actual sex, no penis, no vagina and most-certainly no
allegation that one was ever near the other.
(5)

The Prosecutor's closing argument frequently turned to Kristen's

graphic, remote, third-party extraneous complainant:
a. The Prosecutor argued beyond the evidence when she told jur­
ors that "what happened to [Kristen] is the same thing that
happened to the [instant complainant]." (RR4:90);
b. The Prosecutor told jurors thetthe persistent duality in
her argument was intentional: "I want to focus on [the inst­
ant complainant] and what this defendant did to [her] and
what this defendant did to Kristen [the remote third-party
extraneous complainant] because what he did is not right,"
(RR4:93); and finally,
c. The arguments became fatal to fair trial when the Prosecutor
told jurors to employ Kristen's third-party impeachment test­
imony improperly as the first set of facts upon which they
should find the defendant guilty of the indicted offense: "Find
the defendant guilty," she urged, "because not only did he
[l] hurt Kristen [the third-party extraneous witness] so many
years ago, [2] he's hurt a second child..." (RR4:95).
(6)

Defense counsel did not preserve the improper jury arguments

nor did he seek a currative instruction to re-constrain juror's
guilt-innocence determination to the charged offense.
(7)

Jurors returned a guilty verdict and a 99 year sentence. The

sentence includes no possibility of parole.

5

B.
(8)

DIRECT APPEAL

On direct appeal Petitioner challenged the admissibility of

Kristen Chandler's remote, third-party extraneous testimony under
Texas Rules of Evidence (TRE) §401-404(b). The Texas Court of App­
eals, Fifth District at Dallas, found the testimony admissible un­
der Texas law and affirmed the conviction. (See Appendix 3)
(9)

at IQ )

The Texas Court of Criminal Appeals (TCCA) refused a timely

Petition For Discretionary Review and a Motion For Rehearing on the
"admissibility" issue leaving all state remedies properly and fully
exhausted. The admissibility complaint under TREs §401-404(b) was
abandoned at that time.
C.

STATE HABEAS CORPUS

(10) Based on the trial events in paragraphs (5) and (6) above, Pet­
itioner raised two federal claims on State Habeas; neither concer­
ned the "admissibility" of the Chandler testimony under state law.
Those claims were:
a. State Habeas Ground Three alleged that the Prosecutor's im­
proper jury arguments denied Petitioner the 14th Amendment
due-process right to fair trial. He demonstrated in the trial
record that the Prosecutor's improper arguments infected the
guilt/innocence determination with the facts of Ms. Chandler's
third-party extraneous allegation. (See Appendix £ , at J__)
b. State Habeas Ground Four (Subground Three), alleged the de­
nial of the 6th Amendment right to effective counsel where
counsel failed to preserve or attempt to correct the Prosec­
utor's improper arguments. (See Appendix
at _2-_)
(11) On habeas review, the trial court misapprehended the federal
due-process component of Ground Three to be a continuation of the
State-law admissibility argument previously raised and exhausted.
The State then raised a false relitigation bar to immunize the

6

the claim against further habeas review.
(12) Likewise, that court misapprehended the nature of the Ineffe­
ctive Assistance of Counsel (lAC) claim to concern the mere admissi­
bility of the Chandler testimony under State law rather than the
Prosecutor's "dual-basis" for conviction argument that denied Pet­
itioner's federal right to fair trial U.S. Const. 14th Amend.
The court found that Counsel's silence during the Prosecutor's
arguments was not ineffective-assistance because Counsel's post-hoc
rationalization of his silence pointed to a running bill of objection.
(13) The running bill of objection upon which Counsel relied had nothing whatsoever--zero--to do with the improper jury arguments of
the Prosecutor. (See Appendix

G , for Terms Of The Running Bill)

(14) Throughout the habeas process, Petitioner has given notice that
his claims are being misapprehended and pinned-down behind a false
bar (State Ground Three) or misapprehended and unreasonably resoved
concerning IAC (State Ground Four, Subground Three). Nonetheless,
courts continue to attend only the miscontrued version of his claim.
(See Appendix H

for a compendium of notice given.)
D.

FEDERAL HABEAS CORPUS

(15) On 17 March 2017, Petitioner filed a petition^ or writ of habeas
corpus in the United States Federal District Court for the Eastern
District of Texas. Petitioner argued that the claims relevant here
were being misconstrued and asked for an evidentiary hearing to form­
ally establish that he had raised a federal due-process challenge to
the State's use of Kristen Chandler's testimony as the first basis

7

for conviction, not the testimony's admissibility for impeachment
purposes under Texas state law.
(16) The District Court denied the hearing and refused to hear the
due-process claim concerning the improper dual-basis-for-conviction
pressed upon jurors during the State's closing. The court based its
refusal solely and explicitly on the State's assertion of a "relit­
igation" bar under State law. (See Appendix

B , at _J_)

(17) On 10 July 2020, Petitioner timely-filed application for a
Certificate of Appealability (COA) in the United States Court of
Appeals for the Fifth Circuit arguing that jurists of reason would
disagree with the District Court's ruling because:
a. The Prosecutor's explicit argument urging jurors to find
guilt first upon the facts of the third-party extraneous
allegation of Ms. Chandler constituted a clear and egregious
denial of the federal due-process right to fair trial.
b. The trial court's determination that the claim was a relit­
igation of the "admissibility" argument raised on Direct App­
eal was a factual finding contradicted by clear-and-convincing
evidence in the record.
c. The running-bill
his silence during
tor was granted on
less to assist the

upon which Defense Counsel relied to excuse
the improper jury arguments by the Prosecu­
a completely unrelated issue and was power­
defense on the issue at hand.

(18) On 25 March 2021, a single Justice denied the Application with­
out explaination. The same Justice denied Motion For Panel Rehearing.
The Mandate issued and the case closed.
(19) Owing to the State's artful misconstruction of Petitioner's
habeas grounds and the District Court's improper deference to the
State's assertion of a "relitigation" bar, the federal claims con­
cerning paragraphs (5) and (6) above, remain unheard.

8

REASONS FOR GRANTING THE PETITION
The Holding In CONE V. BELL, 566 U.S. 449 (2009)
Compels This Court To Now GRANT, VACATE, and REMAND
(GVR) This Case And Order The District Court To
Hear The Federal Due-Process Claims Concerning
Paragraphs (5) and (6) Above.

Petitioner's appellate efforts have previously focused on expo­
sing the State's Mischaracterizations of his claim and the tactical
hijinks employed to avoid correcting, or even acknowledging the
consequences of such mischaracterizations. In particular, the falsity
of the resulting state-relitigation bar raised on state habeas.
It is upon the State's relitigation bar that the Federal Dist­
rict Court expressly relied to decline hearing Petitioner's due pro­
cess claim concerning the trial events of paragraphs (5) and (6)
above. (See Appendix B , page

1

) See cds© p3 7

However, in recent days Petitioner has become aware of Supreme
Court precedent holding that even IF a state-relitigation bar is
such bars DO NOT foreclose federal review of a state habeas

true

claim carried forward to a Federal District Court under 28 U.S.C.
§2254.

Please consider :

"When a state court declines to review the merits of a Pet­
itioner's claim on the ground that it has done so already, it
creates no bar to federal habeas review. In YLST V. NUNNEMAKER,
501 U.S. 747, 804 n.3 (1991) we observed in passing that when a
state court declines to revisit a claim it has already adjudic­
ated, the effect of the latter decision upon the availability
of federal habeas is "nil" because a later state decision based
upon ineligibility for further state review neither rests upon
procedural default nor lifts a pre-existing procedural default.
"When a state court refuses to readjudicate a claim on the

9

ground that it has been previously determined, the court's
decision does not indicate that the claim has been procedurally
defaulted. To the contrary, it provides strong evidence that
the claim has already been given full consideration by the state
court and thus is ripe for federal consideration." See this
Court's opinion in CONE V. BELL, 566 U.S. 449, 466-67 (2009)
The Federal District Court's error is clear as both a matter
of fact (Petitioner relitigated no federal claim during state habeas
that he had previously raised on direct appeal), and as a matter of
law (even if he had sought relitigation of a federal claim, reliti­
gation bars in the State do not bar federal habeas review). The
Federal District Court's refusal to hear the claim is therefore error
that must be corrected to allow Petitioner to vidicate his right to
fair trial under U.S. Const. Amend. XIV.
Petitioner asks this Court to GRANT certiorari, VACATE the
Judgment in the case, and REMAND to the United States Federal Dist\

rict Court For The Eastern District of Texas. Petitioner further
prays this Court order the District Court to hear the due-process
(fair trial) component of the prosecutorial misconduct claim that
culminated in the State offering jurors a dual-basis-for-conviction
to include a charge for which Petitioner was not on trial AND the
IAC claim related thereto. (See Pages 6A and 7 A of the original
federal petition submitted under 28 U.S.C. §2254 available at
Appendix J"_, pages GA 7A).

10

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Stephen^C. Shockley, 1793928
2661 FM 2054; Coffield Unit
Tennessee Colony, TX 75884
Incarcerated Pro-se Petitioner

Date

11

